Report No. D-2009-004          October 8, 2008




     Agreed-Upon Procedures for Reviewing
     the FY 2008 Civilian Payroll Withholding
        Data and Enrollment Information
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DCAA                   Defense Contract Audit Agency
DCPS                   Defense Civilian Pay System
DFAS                   Defense Finance and Accounting Service
DOE                    Department of Energy
EPA                    Environmental Protection Agency
FEGLI                  Federal Employees Group Life Insurance
GAO                    Government Accountability Office
HHS                    Health and Human Services
IG                     Inspector General
NGB                    National Guard Bureau
ODO                    Other Defense Organization
OMB                    Office of Management and Budget
OPF                    Official Personnel File
OPM                    Office of Personnel Management
OSD                    Office of the Secretary of Defense
RITS                   Retirement and Insurance Transfer System
TSP                    Thrift Savings Plan
WHS                    Washington Headquarters Service
                                      INSPECTOR GENERAL
                                     OEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202--4704




                                                                                   October 8, 2008

MEMORANDUM FOR DISTRIBUTION



SUBJECT: Agreed-Upon Procedures for Reviewing the FY 2008 Civilian Payroll Withholding
         Data and Enrollment Infonnation (Report No. D2009-{)04)

We are providing this report for review and comment. The Air Force, Defense Contract Audit
Agency. Office of the Secretary of Defense, Washington Headquarters Service, Department of
Energy, and the Environmental Protection Agency did not respond to the draft report; however,
we considered comments from the Anny, Navy, National Guard Bureau, and the Department of
Health and Human Services when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Anny, Navy.
National Guard Bureau, and the Department of Health and Human Services comments were
responsive. We request that the Air Force, Defense Contract Audit Agency. Office of the
Secretary of Defense, Washington Headquarters Service, Department of Energy, and the
Environmental Protection Agency provide comments on the Recommendation by November 10,
2008.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send your comments in electronic fonnat (Adobe Acrobat file only) to AUDDFS@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We arc unable to accept the / Signed / symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Intemct Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Mark S.
Hcnricks at (703) 601-5942 (DSN 664-5942) or Mr. Thomas J. Winter at (703) 601-5918
(DSN 664-5918). Team members are listed inside the back cover.



                                     t~a!JJ~
                                     Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                     Defense Financial Auditing Service
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE
   (COMPTROLLER)/CHIEF FINANCIAL OFFICER
UNDER SECRETARY OF DEFENSE
   FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF THE ARMY
  (FINANCIAL MANAGEMENT AND COMPTROLLER)
ASSISTANT SECRETARY OF THE AIR FORCE
   (FINANCIAL MANAGEMENT AND COMPTROLLER)
CHIEF, NATIONAL GUARD BUREAU
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF ENERGY
INSPECTOR GENERAL, DEPARTMENT OF HEALTH AND HUMAN SERVICES
INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY
INSPECTOR GENERAL, OFFICE OF PERSONNEL MANAGEMENT
                    Report No. D-2009-004 (Project No. D2008-D000FP-0053.000)
                                         October 8, 2008

               Results in Brief: Agreed-Upon Procedures
               for Reviewing the FY 2008 Civilian Payroll
               Withholding Data and Enrollment Information

What We Did                                              What We Recommend
Our objective was to assist the Office of                We recommend that the Army, Navy, Air Force,
Personnel Management (OPM) in assessing                  National Guard Bureau, Defense Contract Audit
whether Health Benefits, Life Insurance, and             Agency, Office of the Secretary of Defense,
Retirement contributions and withholdings, and           Washington Headquarters Service, Department
enrollment information that Defense Finance              of Energy, Department of Health and Human
and Accounting Service (DFAS) submitted to               Services, and the Environmental Protection
OPM were reasonable and accurate. We                     Agency personnel offices work with Defense
assisted them by performing agreed-upon                  Finance and Accounting Service payroll offices
procedures agreed to by the OPM Chief                    to implement and improve payroll withholding
Financial Officer and OPM Inspector General.             procedures to ensure that payroll withholding
We conducted this attestation engagement in              authorizations support the amounts actually
accordance with generally accepted government            withheld.
auditing standards, which incorporate financial
audit and attestation standards established by the       Client Comments and Our
American Institute of Certified Public
Accountants. The sufficiency of these                    Response
procedures is solely the responsibility of the           The Army, Navy, National Guard Bureau, and
OPM Chief Financial Officer and Inspector                the Department of Health and Human Services
General. Consequently, we make no                        concurred with our recommendation. We
representation regarding the sufficiency of the          consider their replies responsive and do not
procedures either for the purpose for which this         require additional comments. We did not
report has been requested or for any other               receive comments from the Air Force, Defense
purpose.                                                 Contract Audit Agency, Office of the Secretary
                                                         of Defense, Washington Headquarters Service,
What We Found                                            Department of Energy, or the Environmental
Of the 455 Official Personnel Files reviewed,            Protection Agency and request they provide
we determined that 21 Official Personnel                 comments by November 10, 2008. Please see
Files had 22 unresolved discrepancies. The               the Recommendations Table on the following
22 discrepancies occurred because the                    page.
documentation was not current and, therefore,
did not support DFAS pay and withholding
amounts. In addition, we determined that the
amounts reported to OPM for Other Defense
Organization Option C and Department of
Energy Option A Life Insurance coverage
differences exceeded the 2-percent reporting
threshold criteria. These differences were
mostly attributable to retroactive adjustments.




                                                     i
                Report No. D-2009-004 (Project No. D2008-D000FP-0053.000)
                                     October 8, 2008

Recommendations Table
Client                        Recommendation
                              Requires Comment
Army                          No
Navy                          No
Air Force                     Yes
National Guard Bureau         No
Defense Contract Audit        Yes
Agency
Office of the Secretary of    Yes
Defense
Washington Headquarters       Yes
Service
Department of Energy          Yes
Department of Health and      No
Human Services
Environmental Protection      Yes
Agency


Please provide comments by November 10, 2008.




                                           ii
Table of Contents

Results in Brief                                             i

Introduction

       Objective                                             1
       Office of Management and Budget Audit Requirements    1

Independent Auditor’s Report                                 2

       Recommendations, Client Comments, and Our Response    5

Agreed-Upon Procedures and Associated Findings               7

Appendices

       A. Scope and Methodology                             19
       B. Prior Coverage                                    21
       C. OPM Agreed-Upon Procedures                        23

Client Comments

       Department of Army                                   33
       Department of Navy                                   34
       National Guard Bureau                                35
       Department of Health and Human Services              36
Introduction
Objective
Our objective was to assist the Office of Personnel Management (OPM) in assessing
whether Health Benefits, Life Insurance, and Retirement contributions and withholdings,
and enrollment information submitted by the Defense Finance and Accounting Service
(DFAS) to OPM were reasonable and accurate. We assisted OPM by performing
agreed-upon procedures agreed to by the OPM Chief Financial Officer and OPM
Inspector General.

Office of Management and Budget Audit Requirements
Office of Management and Budget (OMB) Bulletin No. 07-04, “Audit Requirements for
Federal Financial Statements,” September 4, 2007, requires all Federal agencies to review
their civilian employee Health Benefits, Life Insurance, and Retirement contributions and
withholdings, and enrollment information. The OPM Inspector General and its Chief
Financial Officer developed agreed-upon procedures to review these civilian employees’
contributions and withholdings, and enrollment information. Therefore, the sufficiency
of the agreed-upon procedures is solely the responsibility of OPM.

OMB Bulletin No. 07-04 requires the auditor of each payroll provider to apply the
agreed-upon procedures separately for each entity designated as subject to the Chief
Financial Officers Act and to entities that have more than 30,000 employees but are not
designated under the Chief Financial Officers Act. DFAS is the payroll provider for the
Department of Defense (DoD), Department of Energy (DOE), Department of Health and
Human Services (HHS), and the Environmental Protection Agency (EPA). Within DoD,
DFAS generates payroll files for the Army, Navy, Air Force, and Other Defense
Organizations (ODO) each payroll period. DFAS generates payroll files for three other
DoD entities but they do not meet the 30,000 employee criteria. DFAS also generates
payroll files for DOE, HHS, and EPA each payroll period. During our engagement, DoD
averaged 692,000 employees, DOE 11,000 employees, HHS 75,000 employees, and EPA
18,000 employees for the pay periods reviewed. The DoD average employee number
included the following: Army 240,000 employees, Navy 144,000 employees, Air Force
164,000 employees, ODO 87,000 employees, Army 13,000 employees overseas,
Navy 25,000 shipyard employees, and ODO 19,000 overseas employees. DOE, HHS,
and the EPA are subject to the Chief Financial Officers Act.

OMB designated the DoD Inspector General (IG) as the principal auditor for DFAS.
Therefore, the DoD IG is responsible for performing these agreed-upon procedures.
Auditors of customer agencies must participate to the extent necessary to ensure that the
agreed-upon procedures are performed effectively and within established timeframes.
Although the auditors must perform the agreed-upon procedures separately for each
applicable entity, the principal auditor (DoD IG for DFAS) issues the combined results
into a single report.




                                            1
Independent Auditor’s Report
We have performed the procedures agreed to by the OPM Chief Financial Officer and
OPM Inspector General. We performed the agreed-upon procedures solely to assist OPM
in assessing the reasonableness of Health Benefits, Life Insurance, and Retirement
contributions and withholdings, and enrollment information. We conducted this
attestation engagement in accordance with generally accepted government auditing
standards, which incorporate financial audit and attestation standards established by the
American Institute of Certified Public Accountants. The sufficiency of these procedures
is solely the responsibility of the OPM Chief Financial Officer and Inspector General.
Consequently, we make no representation regarding the sufficiency of the procedures
either for the purpose for which this report has been requested or for any other purpose.
(See Appendix C for the procedures the OPM provided to us.)

The following paragraphs summarize the results of the procedures. The section titled
“Agreed-Upon Procedures and Associated Findings” contains the procedures and auditor
actions.

Comparison of Amounts Withheld by Defense Finance
and Accounting Service to the Amounts Reported to the
Office of Personnel Management
DFAS captured the data necessary to perform the agreed-upon procedures at the end of
each pay period. We sampled the payroll periods that ended on September 1, 2007;
October 27, 2007; November 10, 2007; and March 1, 2008. The gross payroll amount for
DoD, DOE, HHS, and EPA payroll files sampled totaled $7.7 billion. This represents
14.19 percent of the annual gross pay for these four entities’ payrolls. We compared the
amounts DFAS withheld from employees pay to the amounts reported to OPM. The
payroll withholding amount of $430 million that DFAS reported to OPM for these
entities differed by $45,305 for an overall error rate of 0.01 percent. This is similar to the
difference noted for FY 2007. The overall differences for Health Benefits, Life
Insurance, and Retirement withholdings were less than the reporting threshold criteria
of 1 percent established in the agreed-upon procedures.

Comparison of Payroll System Data to Official Personnel
Files
We randomly selected a sample of 455 employees from the October 27, 2007, pay
period from the seven payroll data files (Army, Navy, Air Force, ODO, DOE, HHS,
and EPA) by using Audit Command Language software. We compared the sample
of 455 employees’ pay and withholdings in the Defense Civilian Pay System (DCPS)
to the documentary support in the Official Personnel Files (OPF). Of the 455 OPFs,
260 represented DoD employees, 65 represented DOE employees, 65 represented HHS
employees, and 65 represented EPA employees. Of the 455 files reviewed, 21 had a total
of 22 unresolved discrepancies. Table 1 shows by entity the number of OPFs with
unresolved discrepancies.




                                              2
      Table 1. Official Personnel Files with Unresolved Discrepancies by Entity
                       Number of Official       Number of
       Entity            Personnel Files       Discrepancies      Affected Benefit
Army                            1                     1          Health
Air Force                       1                     1          TSP
           *
ODO–OSD                         3                     3          Life, TSP
            *
ODO–WHS                         1                     1          Life
DOE                             2                     2          Health, Life
HHS                            12                    13          Health, Life, TSP
EPA                             1                     1          TSP
Total                          21                    22
*
 OSD–Office of the Secretary of Defense, WHS–Washington Headquarters Service, and TSP–Thrift
Savings Plan.

The unresolved discrepancies resulted from OPF documentation that was not current and,
therefore, did not support DFAS pay and withholding amounts.

Of the 455 OPFs that we reviewed, we originally identified 91 with discrepancies. We
provided the affected entities with the names, social security numbers, and nature of the
discrepancies for each of the files. The DFAS and entity personnel offices subsequently
provided us with documentation that explained 70 of the OPFs with discrepancies
between data in the OPFs and data in DCPS. As a result, we reclassified the 70 OPFs as
“samples corrected at a later date.” The table below shows by entity the number of OPFs
with resolved discrepancies.

                  Table 2. Official Personnel Files Resolved by Entity
                                                  Number of OPFs
                           Entity                     Resolved
                 Army                                      2
                 Army-NGB*                                 1
                 Navy                                     10
                 Air Force                                 4
                 ODO–DCAA*                                10
                 ODO–OSD                                   4
                 DOE                                      10
                 HHS                                       5
                 EPA                                      24
                 Total                                    70

                 *NGB–National Guard Bureau; DCAA–Defense Contract Audit Agency.




                                                3
Employee Headcount
We compared the number of employees (headcount) in the DFAS payroll files with the
Semiannual Headcount Report submitted to OPM and found no differences. Therefore,
the headcount comparison was within the 2-percent reporting threshold criteria
established in the agreed-upon procedures.

Retirement
We recalculated the retirement withholdings and entity contributions from the seven
payroll data files for the four pay periods we reviewed. We determined that DFAS
supported the amounts reported to OPM for the Army, Navy, Air Force, ODO, HHS,
DOE, and EPA. The largest difference for the Federal Employees Retirement Systems’
employee withholdings was approximately $3,100 (.14%) from the $2.2 million that
DFAS reported to OPM. For entity contributions, the difference was approximately
$407,000 (1.14%) from the $35.6 million that DFAS reported to OPM. The largest Civil
Service Retirement System difference for employee withholdings was approximately
$7,100 (.92%) from the $768,000 that DFAS reported to OPM. For entity contributions,
the difference was approximately $8,500 (1.01%) from the $836,000. The differences
between the amounts we calculated and the amounts DFAS reported to OPM did not
exceed the 5-percent reporting threshold criteria established in the agreed-upon
procedures.

Health Benefits
We recalculated the Health Benefits withholdings and entity contributions from the seven
payroll data files for the four pay periods we reviewed. We determined that DFAS
supported the amounts reported to OPM. The largest Health Benefits difference for
employee withholdings was approximately $26,000 (1.73%) from the $1.5 million that
DFAS reported to OPM. For entity contributions, the difference was approximately
$209,000 (1.55%) from the $13.5 million that DFAS reported to OPM. The difference
between the amounts we calculated and the amounts DFAS reported to OPM did not
exceed the 5-percent reporting threshold criteria established in the agreed-upon
procedures.

Life Insurance
We recalculated the Basic Life Insurance from the seven payroll data files for the four
pay periods we reviewed. We determined that DFAS supported the amounts reported
to OPM. The largest Life Insurance difference for employee withholdings was
approximately $15,900 (2.53%) from the $628,000 that DFAS reported to OPM.
For entity contributions, the difference was approximately $8,200 (2.6%) from the
$315,000 that DFAS reported to OPM. The difference between the amounts we
calculated and the amounts DFAS reported to OPM did not exceed the 5-percent
reporting threshold criteria established in the agreed-upon procedures.

In addition, we recalculated Option A, Option B, and Option C Life Insurance coverage
from the seven payroll data files for the four pay periods we reviewed. We determined
that DFAS supported the amounts reported to OPM for the Army, Navy, Air Force, HHS,
and EPA. The difference between the amounts we calculated and the amounts DFAS
reported to OPM did not exceed the 2-percent reporting threshold criteria established in
the agreed-upon procedures. However, for ODO Option C, the difference exceeded the
2-percent reporting threshold criteria. In addition, for DOE Option A, the difference



                                            4
exceeded the 2-percent reporting threshold criteria established in the agreed-upon
procedures. These differences were mostly attributable to retroactive adjustments.

Engagement Limitations
We were not engaged to examine (express an opinion), and did not examine, whether the
Health Benefits, Life Insurance, and Retirement contributions and withholdings, and
enrollment information submitted by DFAS to OPM, were reasonable and accurate.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that we would have reported.
We completed our agreed-upon procedures on September 29, 2008.

This report is intended solely for use by management and should not be used by those
who have not agreed to the procedures or have not taken responsibility for the sufficiency
of the procedures for their purposes. However, the report is a matter of public record and
its distribution is not limited; thus, we will post the report on our Web site and provide
copies upon request.

Recommendations, Client Comments, and Our
Response
We recommend that Army, Navy, Air Force, National Guard Bureau, Defense
Contract Audit Agency, Office of the Secretary of Defense, and Washington
Headquarters Service, Department of Energy, Department of Health and Human
Services, and Environmental Protection Agency personnel offices work with Defense
Finance and Accounting Service payroll offices to implement and improve payroll
withholding procedures to ensure that payroll withholding authorizations support
the amounts actually withheld.

Army Comments
The Army concurred with our recommendation. We considered the comments to the
draft report when preparing the final.

Navy Comments
The Navy concurred with our recommendation. We considered the comments to the draft
report when preparing the final.

National Guard Bureau Comments
The National Guard Bureau concurred with our recommendation. We considered the
comments to the draft report when preparing the final.

Health and Human Services Comments
The Department of Health and Human Services concurred with our recommendation.
However, the Deputy Assistant Secretary, Office of Human Resources Assistant
Secretary for Administration and Management disagreed with our inclusion of four Thrift
Savings Plan discrepancies because we were not required to review the Thrift Savings
Plan information under the Office of Personnel Management Agreed-Upon Procedures.
In addition, the Deputy Assistant Secretary stated that Health and Human Services
corrected the one Federal Employees Group Life Insurance discrepancy as of April 24,
2008. We considered the comments to the draft report when preparing the final.



                                            5
Our Response
Comments from the Army, Navy, and National Guard Bureau were responsive.
We consider the comments from the Department of Health and Human Services to be
responsive. The Department of Health and Human Services agreed in a Memorandum of
Agreement with us to review Thrift Savings Plan information. During our audit, the
Department of Health and Human Services Inspector General auditors did not provide us
information showing us that the Federal Employees Group Life Insurance code was
corrected and that the associated Life Insurance withholdings were retroactively adjusted.
Therefore, we did not change any information in the report.

Client Comments Required
The Departments of the Air Force, Defense Contract Audit Agency, Office of the
Secretary of Defense, Washington Headquarters Service, and the Environmental
Protection Agency did not respond to the draft report; therefore, we request that they
provide comments to this report by November 10, 2008. In addition, the Department of
Energy provided unofficial comments to the draft report in which they concurred with
our recommendation. We are requesting that they also provide official written comments
to this report by November 10, 2008.




                                            6
Agreed-Upon Procedures and Associated
Findings
This section contains the OPM agreed-upon procedures, the auditor actions, and the
results of completing those procedures. See Appendix C for the Office of Personnel
Management’s Agreed-Upon Procedures, extracted from Office of Management and
Budget Circular 07-04.

Overall Procedure. Obtain the Agency Payroll Office’s (APO) September 2007 and
March 2008 Semiannual Headcount Reports submitted to OPM and a summary of RITS
[Retirement and Insurance Transfer System] submissions for September 2007 and the
current fiscal year. For Retirement, Health Benefits, and Life Insurance select a total of
three RITS submissions for September 2007 and the current fiscal year; two will coincide
with the September 2007 and March 2008 Semiannual Headcount Report. Obtain payroll
information for the periods covered by the RITS submissions selected.

       Auditor Action for DoD, DOE, HHS, and EPA
       We obtained the Retirement and Insurance Transfer System (RITS) submissions
       for the pay periods ended September 1, 2007; October 27, 2007; November 10,
       2007; and March 1, 2008, and the Semiannual Headcount Reports as of
       September 1, 2007; and March 1, 2008.

Procedure 1. Compare RITS submission data with payroll information by performing
the following procedures (Note: For cross-servicing agencies, if the internal controls are
the same for all agencies serviced, it is only necessary to perform this procedure for one
agency):

Procedure 1.a. Recalculate the mathematical accuracy of the payroll information.

       Auditor Action for DoD
       DFAS extracted the four payroll files (Army, Navy, Air Force, and ODO) from
       their payroll history database. We totaled the 16 payroll files (4 payroll files for
       four pay periods) for a total of $6.5 billion in pay. The pay was about $1.6 billion
       per pay period and about 635,000 employees per pay period. We also totaled the
       Civil Service Retirement System (CSRS), Federal Employee Retirement System
       (FERS), Health Insurance, and Life Insurance withholdings. According to DFAS,
       the total withholdings for DoD were approximately $97.2 million for CSRS,
       $35.9 million for FERS, $176.2 million for Health Insurance, and $59.4 million
       for Life Insurance. The DoD total gross payroll was about $42.1 billion in
       FY 2008.

       Auditor Action for DOE
       We performed the same procedure as for DoD. We totaled the four payroll files
       (one for each pay period) for a total of $41.1 million in pay and about
       10,697 employees in each pay period. According to DFAS, the total withholdings
       for DOE were approximately $3 million for CSRS, $0.887 million for FERS,
       $3.9 million for Health Insurance, and $1.5 million for Life Insurance. The DOE
       total gross payroll was about $1 billion in FY 2008.




                                             7
       Auditor Action for HHS
       We performed the same procedure as for DoD. We totaled the four payroll
       files (one for each pay period) for a total of $195.2 million in pay and about
       74,606 employees in each pay period. According to DFAS, the total withholdings
       for HHS were approximately $9.1 million for CSRS, $4.9 million for FERS,
       $18.0 million for Health Insurance, and $6.4 million for Life Insurance. The HHS
       total gross payroll was about $5 billion in FY 2008.

       Auditor Action for EPA
       We performed the same procedure as for DoD. We totaled the four payroll
       files (one for each pay period) for a total of $64.2 million in pay and about
       18,106 employees in each pay period. According to DFAS, the total withholdings
       for EPA were approximately $4.3 million for CSRS, $1.5 million for FERS,
       $6.1 million for Health Insurance, and $1.9 million for Life Insurance. The EPA
       total gross payroll was about $1.7 billion in FY 2008.

Procedure 1.b. Recalculate the mathematical accuracy of each RITS submission for
the payroll information selected in step 1.a.

       Auditor Action for DoD, DOE, HHS, and EPA
       We recalculated the mathematical accuracy of each RITS submission for the pay
       periods September 1, 2007; October 27, 2007; November 10, 2007; and March 1,
       2008. We compared the recalculated amounts with the RITS submission for the
       corresponding pay periods. Differences between DCPS payroll file totals and the
       corresponding amounts in the RITS submissions were within the 1-percent
       reporting threshold criteria for these comparisons.

Procedure 1.c. Compare the employee withholding information shown at the
aggregate level for Retirement, Health Benefits, and Life Insurance (as adjusted for
reconciling items) shown on the payroll information obtained in step 1.a. to the related
amounts shown on the RITS submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life Insurance
(categories) for step 1.c. that are over one percent of the aggregate amount reported for
each of the three categories. Obtain from management a management official name, an
explanation, telephone number, and an e-mail address for the differences above the one
percent threshold.

       Auditor Action for DoD, DOE, HHS, and EPA
       We compared the employee withholding totals from the seven DFAS payroll files
       to the related amounts shown on the RITS submission for Retirement, Health
       Benefits, and Life Insurance, as evidenced by a Form 2812 produced from the
       RITS database. Differences between the DFAS payroll files for CSRS, FERS,
       Health Benefits, and Life Insurance were within the 1-percent reporting threshold
       criteria for this comparison.

Procedure 2.a. Randomly select a total of 25 individuals who were on the payroll
system for all three of the RITS submissions selected above that meet all the following
criteria:

   •   covered by the Civil Service Retirement System (CSRS) or the Federal
       Employees Retirement System (FERS);

                                                8
   •   enrolled in the Federal Employees Health Benefits (FEHB) Program;
   •   covered by Basic Life Insurance; and
   •   covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
       optional coverage (Option A, B, or C).

   Auditor Action for DoD, DOE, HHS, and EPA
       We randomly selected 35 individuals from each of the seven payroll files (four
       files for DoD and one each for DOE, HHS, and EPA) from the pay periods ending
       September 1, 2007; October 27, 2008, November 10, 2007; and March 1, 2008,
       who were enrolled in CSRS or FERS, a FEHB program, and FEGLI program.

Procedure 2.b. Obtain the following documents, either in electronic or hard copy
format, from the Official Personnel File (OPF) for each individual selected in step 2.a.
Hard copies can be originals or certified copies.

   •   all Notifications of Personnel Actions (SF-50) covering the pay periods in the
       RITS submissions chosen;
   •   the Health Benefits Election Form (SF-2809) covering the pay periods in the
       RITS submissions chosen or, if applicable, obtain a report (via the agency
       personnel office) from the agency’s automated system that allows participants to
       change benefits, (e.g. Employee Express), for any Health Benefits transactions in
       that system for the individuals selected in step 2.a. (note: a new SF-2809 is
       needed only if an employee is changing health benefit plans, therefore the form
       could be many years old); and
   •   the Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
       submission chosen (note: a new SF-2817 is needed only if an employee is
       changing Life Insurance coverage, therefore the form could be many years old).
Procedure 2.b.i. For Health Benefits, compare date of transaction with date on the
certified copy of the SF-2809 or the agency’s automated system report obtained above to
identify whether the health benefit information to be used in the step 2.f. covers the pay
periods in the RITS submissions chosen.

       Auditor Action for DoD
       We obtained Notifications of Personnel Actions (SF-50), Health Benefit
       Registration Forms (SF-2809), and Life Insurance Election Forms (SF-2817)
       for each individual in our random sample covering the pay periods in the RITS
       submissions with one exception from the Army. This exception pertained to a
       missing SF-2809.

       Auditor Action for DOE and HHS
       We verified that the DOE and HHS auditors obtained the Notifications of
       Personnel Actions (SF-50), Health Benefit Registration Forms (SF-2809), and
       Life Insurance Election Forms (SF-2817) for each individual in our random
       sample covering the pay periods in the RITS submissions with six exceptions
       from HHS. These consisted of five missing SFs-2809 and one missing SF-2817.

       Auditor Action for EPA
       We obtained Notifications of Personnel Actions (SF-50), Health Benefit
       Registration Forms (SF-2809), and Life Insurance Election Forms (SF-2817)
       for each individual in our random sample covering the pay periods in the RITS
       submissions.

                                             9
Procedure 2.c. For each individual selected in step 2.a., compare the base salary used
for payroll purposes and upon which withholdings and contributions generally are based
to the base salary reflected on the employee’s SF-50. Report any differences resulting
from this step and obtain management’s explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We compared the base salary used for payroll purposes with the base salary
       reflected on the employees’ SFs-50. We did not find any differences for this
       comparison.

Procedure 2.d. For Retirement for each individual selected in step 2.a, compare the
retirement plan code on the employees’ SF-50 to the plan code used in the payroll
system. Report any differences resulting from this step and obtain management’s
explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We compared the retirement plan codes on the employees’ SFs-50 to the plan
       codes used in DCPS. The DOE and HHS auditors performed the same procedure
       for the DOE and HHS employees’ SFs-50. We did not find any differences
       between the retirement plan codes on the employees’ SFs-50 and the plan codes
       used in the payroll system.

Procedure 2.e. For each individual selected in step 2.a, calculate the retirement
amount to be withheld and contributed for the plan code from the employee’s SF-50, by
multiplying the base salary from the employee’s SF-50 by the official withholding and
contribution rates required by law. Compare the calculated amounts to the actual
amounts withheld and contributed for the retirement plan. Report any differences
resulting from this step and obtain management’s explanation of the differences.

       Auditor Action for DoD
       We calculated the retirement amount withheld and contributed for the plan codes
       from the employees’ SFs-50, based on the official withholding and contribution
       rates required by law. We compared the calculated amounts to the actual amounts
       withheld and contributed for CSRS and FERS participants. We did not find any
       differences for this comparison.

       Auditor Action for DOE
       DOE auditors calculated the retirement amount withheld and contributed for the
       plan codes from the employees’ SFs-50, based on the official withholding and
       contribution rates required by law. They compared the calculated amounts to the
       actual amounts withheld and contributed for CSRS and FERS participants. We
       did not find any differences for this comparison.

       Auditor Action for HHS
       HHS auditors calculated the retirement amount withheld and contributed for the
       plan codes from the employees’ SFs-50, based on the official withholding and
       contribution rates required by law. They compared the calculated amounts to the
       actual amounts withheld and contributed for CSRS and FERS participants. HHS
       auditors did not find any differences for this comparison.




                                           10
       Auditor Action for EPA
       We calculated the retirement amount withheld and contributed for the plan codes
       from the employees’ SFs-50, based on the official withholding and contribution
       rates required by law. We compared the calculated amounts to the actual amounts
       withheld and contributed for CSRS and FERS participants. We did not find any
       differences for this comparison.

Procedure 2.f. For Health Benefits for each individual selected in step 2.a, compare
the employee withholdings and agency contributions to the official subscription rates
issued by OPM for the plan and option elected by the employee, as documented by a
Health Benefits Election Form (SF-2809) in the employee’s OPF or automated system
that allows the participant to change benefits (e.g. Employee Express.) Report any
differences resulting from this step and obtain management’s explanation of the
differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We obtained the official subscription rates for Health Benefits issued by OPM for
       all plans and options available to Federal employees. We then compared the
       employee withholdings and agency contributions with the official subscription
       rates issued by OPM for plans and options elected by the employees, as
       documented in the Health Benefits Registration Forms (SF-2809) in the
       employees’ OPFs. The DOE and HHS auditors performed the same procedure for
       their employees. There were seven differences for this comparison. One
       difference came from the Army, and six differences came from HHS. We
       identified the Army exception and five of the six HHS exceptions in Procedure
       2.b; we attributed the exceptions to missing documents. The sixth HHS exception
       involved calculation differences.

Procedure 2.g. For Life Insurance for each individual selected in step 2.a, confirm
that Basic Life Insurance was elected by the employee by inspecting the Life Insurance
Election Form (SF-2817) documented in the employee’s OPF. Report any differences
and obtain management’s explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We compared Life Insurance Election Forms (SF-2817) with withholding data in
       DCPS. The DOE and HHS auditors performed the same procedure for their
       employees. We found one difference from HHS for this comparison that we also
       identified in Procedure 2.b.
Procedure 2.h. For each individual selected in step 2.a., calculate the withholding
and contribution amounts for Basic Life Insurance using the following:

   •   For employee withholdings: Round the employee's annual base salary up to the
       nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply
       by the rate required by law.
   •   For agency contributions: Divide the employee withholdings calculated above by
       two.

       Compare the calculated amounts to the actual amounts withheld and
       contributed for Basic Life Insurance. Report any differences resulting from
       this step and obtain management’s explanation of the differences.



                                           11
       Auditor Action for DoD, DOE, HHS, and EPA
       For employee withholdings, we calculated the withholding amounts for Basic
       Life Insurance by rounding the employee’s annual base salary up to the next
       thousand dollars and adding $2,000, then dividing the result by $1,000 and
       multiplying by the rate required by law, $0.15. We also divided the employee
       withholdings calculated above by 2. We compared the calculated amounts to the
       actual amounts withheld and contributed for Basic Life Insurance. The DOE and
       HHS auditors performed the same procedure for their employees. We did not
       have any differences for this procedure.

Procedure 2.i. Also, for Life Insurance for each individual selected in step 2.a,
compare optional coverage elected as documented on the SF-2817 in the employee’s OPF
to the optional coverage documented in the payroll system. Report any differences
resulting from this step and obtain management’s explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We obtained the Life Insurance Election Forms (SF-2817) directly from
       employees’ OPFs. We compared the optional Life Insurance coverage on the Life
       Insurance Election Form (SF-2817) to the optional Life Insurance coverage
       recorded in DCPS. We identified three discrepancies for this comparison. Two
       differences came from ODOs (OSD and WHS) and one difference came from
       HHS.

Procedure 2.j. For each individual selected in step 2.a., calculate the withholding
amounts for optional Life Insurance using the following:

   •   For Option A: Locate the employee’s age group using the age groups provided for
       Option A in the FEGLI Program Booklet. The withholding amount to be used is
       the rate listed in the FEGLI Program Booklet for that age group. Compare the
       calculated amount to the amount withheld for Option A Life Insurance. Report
       any differences resulting from this step and obtain management’s explanation of
       the differences.
   •   For Option B: Inspect the SF-2817 to obtain the number of multiples chosen for
       Option B. Locate the employee’s age group using the age groups provided for
       Option B in the FEGLI Program Booklet. Round the employee’s annual rate of
       basic pay up to the next 1000, divide by 1000, and multiply by the rate for the
       respective age group. Multiply this amount by the number of multiples chosen for
       Option B Life Insurance. Compare the calculated amount to the amount withheld
       for Option B Life Insurance. Report any differences resulting from this step and
       obtain management’s explanation of the differences.
   •   For Option C: Inspect the SF-2817 to obtain the number of multiples chosen for
       Option C. Locate the employee’s age group using the age groups provided for
       Option C in the FEGLI Program Booklet. Multiply the rate for the age group by
       the number of multiples chosen for Option C Life Insurance. Compare the
       calculated amount to the amount withheld for Option C Life Insurance. Report
       any differences resulting from this step and obtain management’s explanation of
       the differences.

       Auditor Action for DoD, DOE, and EPA
       We calculated the amounts for optional Life Insurance as prescribed in step 2.j.
       We identified two differences for this comparison. The two differences came
       from ODO (one from OSD and one from WHS). These differences occurred


                                           12
       because of the documentation differences noted in step 2.i. We did not find
       differences in the comparison for DOE and EPA.

       Auditor Action for HHS
       The HHS auditors performed the same procedures and found one difference for
       this comparison. This difference occurred because of the documentation
       differences noted in Procedure 2.i.

Procedure 3. Randomly select a total of 10 employees who have no Health Benefits
withholdings, from the payroll information corresponding to the three RITS submissions
selected above and perform the following for each employee selected.

Procedure 3.a. Obtain SF-2809s [sic] covering the pay periods in the RITS
submissions chosen, either in electronic or hard copy format, from the selected
employees’ OPFs or, if applicable, obtain a report (via the agency personnel office) from
the agency’s automated system that allows participants to change benefits, (e.g.
Employee Express), for any Health Benefit transactions in that system for the individuals
selected. Hard copies can be originals or certified copies. Inspect the documentation
(that is, SF-2809 or the agency’s system-generated report) to identify whether health
benefits coverage was not elected. This can be identified in the following ways:

   •   absence of an SF-2809 in the OPF and no election of coverage made through the
       agency’s automated system that allows participants to change benefits (e.g.
       Employee Express) ; or
   •   an SF-2809 in the OPF with Section E checked (indicating cancellation of
       coverage) and no later election of coverage through the agency’s automated
       system that allows participants to change benefits (e.g. Employee Express); or
   •   cancellation of coverage through the agency’s automated system that allows
       participants to change benefits (e.g. Employee Express) and no later election of
       coverage with an SF-2809.
Procedure 3.b. Compare the result in step 3.a. to the RITS submissions. Report any
differences resulting from this step and obtain management’s explanation of the
differences.

       Auditor Action for DoD
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Health Benefits
       withholdings. We also obtained Health Benefits Registration Forms (SF-2809)
       for the 15 employees from their OPFs or a copy from the electronic personnel
       database. We inspected the documentation to determine whether employees
       elected any Health Benefits coverage. We then compared our results to the RITS
       submission and did not find any differences.

       Auditor Action for DOE
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Health Benefits
       withholdings. DOE auditors obtained the Health Benefits Registration Forms
       (SF-2809) for the 15 employees from their OPFs or a copy from the electronic
       personnel database. They inspected the documentation to determine whether
       employees elected any Health Benefits coverage. They then compared their
       results to the RITS submission and did not find any differences.


                                           13
       Auditor Action for HHS
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Health Benefits
       withholdings. HHS auditors obtained the Health Benefits Registration Forms
       (SF-2809) for the 15 employees from their OPFs or a copy from the electronic
       personnel database. They inspected the documentation to determine whether
       employees elected any Health Benefits coverage. They then compared their
       results to the RITS submission and did not find any differences.

       Auditor Action for EPA
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Health Benefits
       withholdings. We also obtained the Health Benefits Registration Forms
       (SF-2809) for the 15 employees from their OPFs or a copy from the electronic
       personnel database. We inspected the documentation to determine whether
       employees elected any Health Benefits coverage. We then compared our results
       to the RITS submission and did not find any differences.

Procedure 4. Randomly select a total of 10 employees who have no Life Insurance
withholdings from the payroll information corresponding to the three RITS submissions
selected above and perform the following for each employee selected.

Procedure 4.a. Obtain the SF-2817s [sic] covering the pay periods in the RITS
submissions chosen, either in electronic or hard copy format, from the selected
employees’ OPFs. Hard copies can be originals or certified copies. Inspect the SF-2817
to identify that the employee waived or cancelled Basic Life Insurance coverage.

Procedure 4.b. Compare the result in step 4.a to the RITS submissions. Report any
differences resulting from this step and obtain management’s explanation of the
differences.

       Auditor Action for DoD
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Life Insurance
       withholdings according to the DCPS payroll files. We obtained the Life
       Insurance Election Forms (SF-2817) for the 15 employees from their OPFs. We
       then inspected the Life Insurance Election Forms (SF-2817) to determine whether
       the employee cancelled or waived the basic Life Insurance coverage. We found
       one difference for ODO (OSD).

       Auditor Action for DOE
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Life Insurance
       withholdings according to the DCPS payroll files. DOE auditors obtained the
       Life Insurance Election Forms (SF-2817) for the 15 employees from their OPFs.
       DOE auditors then inspected the Life Insurance Election Forms (SF-2817) to
       determine whether the employee cancelled or waived the basic Life Insurance
       coverage. The DOE auditors found one difference.




                                           14
       Auditor Action for HHS
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Life Insurance
       withholdings according to the DCPS payroll files. HHS auditors obtained the
       Life Insurance Election Forms (SF-2817) for the 15 employees from their OPFs.
       HHS auditors then inspected the Life Insurance Election Forms (SF-2817) to
       determine whether the employee cancelled or waived the basic Life Insurance
       coverage. The HHS auditors did not find any differences.

       Auditor Action for EPA
       We randomly selected 15 employees that were in each of the pay periods we
       reviewed. The 15 represented employees who had no Life Insurance
       withholdings according to the DCPS payroll files. We obtained the Life
       Insurance Election Forms (SF-2817) for the 15 employees from their OPFs.
       We then inspected the Life Insurance Election Forms (SF-2817) to determine
       whether the employee cancelled or waived the basic Life Insurance coverage.
       We did not find any differences.

Procedure 5. Calculate the headcount reflected on the September 2007 and March
2008 Semiannual Headcount Report selected, as follows.

Procedure 5.a. Obtain existing payroll information (from step 1.a.) supporting each
Supplemental Semiannual Headcount report. If existing payroll data is not available,
obtain a payroll system query that summarizes detailed payroll data supporting each
Supplemental Semiannual Headcount Report, as follows:

   •   Benefit Category (see Semiannual Headcount Report).
   •   Dollar Amount of withholdings and contributions.
   •   Number Enrolled (deductions made/no deductions).
   •   Central Personnel Data File Code.
   •   Aggregate Base Salary.

Procedure 5.b. Recalculate the Headcount reflected on each Semiannual Headcount
Report. If an electronic file is not available, a suggested method of recalculating the
Headcount is as follows: (1) estimate the number of employees per payroll register page
by counting the employees listed on several pages, (2) count the number of pages in the
payroll register, and (3) multiply the number of employees per page by the number of
pages, or count (using a computer audit routine) the number of employees on the payroll
data file for the period.
Procedure 5.c. Compare the payroll information obtained in step 5.a. and the
calculated headcount from step 5.b. to the information shown on each respective
Semiannual Headcount Report.

Procedure 5.d. Report any differences (i.e., gross rather than net) greater than
2 percent between the headcount reporting on each respective agency's Semiannual
Headcount Report and payroll information from step 5.a. and the calculated Headcount
from step 5.b. Obtain from management a management official name, telephone number,
an e-mail address, and an explanation of the differences.




                                          15
       Auditor Action for DoD, DOE, HHS, and EPA
       We obtained the Supplemental Semiannual Headcount Reports submitted to OPM
       for pay periods ending September 1, 2007, and March 1, 2008. We compared
       these reports to the payroll files DCPS gave us for the same pay periods. The
       headcounts differed by less than the 2-percent reporting threshold criteria for this
       comparison.

Procedure 6. Calculate employer and employee contributions for Retirement, Health
Benefits, and Life Insurance.

Procedure 6.a. Calculate Retirement withholdings and contributions for the three pay
periods selected in step 1.a., as follows:

Procedure 6.a.i. Multiply the CSRS and FERS payroll base by the withholding and
employer contribution rates required by law.

Procedure 6.a.ii. Compare the calculated totals from step 6.a.i to the related amounts
shown on the RITS submissions. Report any differences (i.e., gross rather than net)
between the calculated amounts and the amounts reported on the RITS submissions
greater than 5 percent of the amounts on the RITS submission, and obtain management’s
explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We calculated the total CSRS and FERS retirement employee withholdings and
       employer contributions for the four pay periods that we reviewed, and compared
       the recalculated totals with the amounts shown on the RITS submission. The
       differences were within the 5-percent reporting threshold criteria for these
       comparisons.

Procedure 6.b. Calculate employee withholdings and employer contributions for
Health Benefits for the three pay periods selected in step 1.a., as follows:

Procedure 6.b.i. Multiply the number of employees enrolled in each Health Benefits
plan and plan option by the employee withholdings and employer contributions for the
plan and option.
Procedure 6.b.ii. Sum the totals in step 6.b.i. and compare the result with the Health
Benefit withholding and contribution amounts shown on the RITS submissions. Report
any differences (i.e., gross rather than net) between the calculated amounts and the
amounts reported on the RITS submissions greater than 5 percent of the amounts on the
RITS submission, and obtain management’s explanation for the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We calculated employee withholdings and employer contributions for Health
       Benefits for the four pay periods we reviewed for each Health Benefits plan and
       plan option. We obtained the information from the DFAS payroll files. We
       obtained the official subscription rates for all plans and plan options from the
       OPM website. We totaled the results for each pay period and compared the
       results with the Health Benefits withholdings and employer contributions amounts
       shown on the RITS submission. The differences were within the 5-percent
       reporting threshold criteria for this comparison.



                                             16
Procedure 6.c. Calculate the Basic Life Insurance employee withholdings and
employer contributions for the three pay periods selected in step 1.a., as follows:

Procedure 6.c.i. Obtain a payroll system query from APP personnel to obtain the
total number of employees with Basic Life Insurance coverage and the aggregate annual
basic pay for all employees with Basic Life Insurance.

Procedure 6.c.ii. For employee withholdings: Add the product of 2,000 times the
number of employees with Basic Life Insurance coverage from step 6.c.i above to the
aggregate annual basic pay for all employees with Basic Life Insurance from step 6.c.i
above to calculate the estimated total Basic Life Insurance coverage. Divide this total by
1,000 and multiply by the withholding rate required by law.

Procedure 6.c.iii. Compare the result in step 6.c.ii to the withholdings for Basic Life
Insurance coverage reported on the RITS submission. Report any differences (i.e., gross
rather than net) between the estimate and the amount of withholdings reported on the
RITS submission greater than 5 percent of the amounts on the RITS submission, and
obtain management’s explanation of the difference.

Procedure 6.c.iv. For agency contributions: Divide the results of step 6.c.ii by two—
this approximates agency contributions, which are one-half of employee withholdings.
Compare this result to the amount reported on the RITS submission. Report any
differences (i.e., gross rather than net) between the estimated amount and the actual
amount reported on the RITS submission greater than 5 percent of the amounts on the
RITS submission, and obtain management’s explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We calculated the Basic Life Insurance employee withholdings for the four pay
       periods we reviewed. We also obtain the total number of employees with Basic
       Life Insurance coverage and the aggregate annual basic pay for all employees
       with Basic Life Insurance. We multiplied the number of employees with Basic
       Life Insurance by 2000 and added that to the aggregate annual basic pay for all
       employees with Basic Life Insurance. We divided this total by 1,000 and
       multiplied that result by $0.15 per thousand to estimate the Basic Life Insurance
       coverage. We then compared this amount to the RITS submission. We
       determined that all differences were within the 5-percent reporting threshold
       criteria for this comparison.

       We calculated the Basic Life Insurance employer contributions for the four pay
       periods we reviewed. To estimate agency contributions, we divided the estimated
       Basic Life Insurance withholding by two and compared it to employer Basic Life
       contributions shown on the RITS submissions. We determined that all differences
       were within the 5-percent reporting threshold criteria for this comparison.
Procedure 6.d. Calculate the Option A, Option B and Option C Life Insurance
coverage withholdings for the three pay periods selected by using detail payroll reports
used to reconcile the RITS reports in Step 1. In addition to the information used for step
1, the reports should include the employee's date of birth, annual rate of basic pay, and
number of multiples selected for Option B and C. Note: While similar to step 2.j., the
calculation at this step is for the entire amount reported on the RITS submissions for the
three pay periods selected, as opposed to the sample of 25 employees in step 2.j.




                                            17
Procedure 6.d.i. Multiply the number of employees in each age group by the
appropriate rate for Option A in accordance with the rates for age groups provided in the
FEGLI [Federal Employees Group Life Insurance] Program Booklet.

Procedure 6.d.ii. Compare the result in step 6.d.i to the amounts for Option A
reported on the RITS submissions. Report any differences (i.e., gross rather than net)
greater than 2 percent of the amounts on the RITS submission, and obtain management’s
explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We calculated the Option A, Option B, and Option C Life Insurance coverage
       withholdings for the four pay periods we reviewed from the DFAS payroll files.
       We multiplied the number of employees in each age group by the appropriate rate
       for Option A in accordance with the rates for age groups provided in the FEGLI
       Program Booklet. We totaled the results for each payroll file and compared the
       results with the corresponding amounts on the RITS submissions. We determined
       that all differences were within the 2-percent reporting threshold criteria for this
       comparison, except for the March 1, 2008, payroll file for DOE. We calculated a
       difference of 3.99 percent that was mostly attributable to retroactive adjustments.
Procedure 6.d.iii. Segregate the reports for Option B and Option C insurance into
the age groups shown in the FEGLI Program Booklet. For Option B, round the
employee's annual rate of basic pay up to the next 1000, divide by 1000, multiply by the
rate for the age group, multiply this by the number of multiples:

(Annual rate of basic pay (rounded up)/1000*rate*multiples). For Option C, multiply the
rate for the age group by the number of multiples chosen for each employee.

Procedure 6.d.iv. Compare the result in step 6.d.iii. to the amounts for Option B and
Option C, respectively, reported on the RITS submissions. Report any differences (i.e.
gross rather than net) greater than 2 percent of the amounts on the RITS submission for
Option B or Option C, and obtain management’s explanation of the differences.

       Auditor Action for DoD, DOE, HHS, and EPA
       We segregated the DFAS payroll files for Option B and Option C insurance into
       the age groups shown in the FEGLI Program Booklet for the four pay periods we
       reviewed. We multiplied the results by the official withholding rates shown in the
       FEGLI Program Booklet, times the number of multiples of coverage elected, to
       reconstruct the total withholdings for Option B and Option C. We then compared
       this result with the amounts shown on the RITS submissions. We determined that
       all differences were within the 2-percent reporting threshold criteria for this
       comparison, except for the March 1, 2008, payroll file for ODO. We calculated a
       difference of 4.6 percent that was mostly attributable to retroactive adjustments.




                                            18
Appendix A. Scope and Methodology
We conducted these agreed-upon procedures from December 2007 through September
2008 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the agreed-upon procedures to obtain
sufficient, appropriate evidence to provide a reasonable basis for our results based on our
agreed-upon objective. We believe that the evidence obtained provides a reasonable
basis for our results based on our agreed-upon objectives. We performed additional
procedures that we considered necessary in the circumstances. Specifically, we reviewed
TSP (Thrift Savings Plan) information. We outlined these additional procedures in
Memorandums of Agreement with DOE and HHS.

OMB required us to review the payroll periods that ended on September 1, 2007, and
March 1, 2008. OMB also required us to judgmentally select another payroll period.
We judgmentally selected two other payroll periods, those that ended on October 27,
2007, and November 10, 2007. For each payroll period, DFAS generates four payroll
files for DoD, one for the Army, Navy, Air Force, and Other Defense Organizations
(ODO) each payroll period. DFAS generates payroll files for three other DoD entities
but they do not meet the 30,000 employee criteria. They include the Army overseas
employees, Navy shipyard employees, and ODO overseas employees. DFAS also
generates payroll files for DOE, HHS, and EPA each payroll period.

The DFAS payroll files we received showed an average of 799,000 employees for DoD,
DOE, HHS, and EPA with a total gross payroll of about $8 billion for the four payroll
files we reviewed. DFAS total gross payroll for DoD, DOE, HHS, and EPA was about
$54 billion in FY 2008. For the four payroll periods reviewed, we compared the amounts
DFAS withheld from employees pay to the amounts it reported to OPM.

In addition, we randomly selected a sample of 455 employees from the payroll period
ended October 27, 2007, from the seven payroll data files by using Audit Command
Language software. We compared the sample of 455 employees’ pay and withholdings
in DCPS to the documentary support in the OPFs. We did not audit the DOE or HHS
OPFs. Auditors from the DOE Inspector General and HHS Inspectors General offices
audited their respective OPFs. Both parties provided their working papers to us.

We also compared the number of employees (headcount) in the payroll files with the
Semiannual Headcount Report DFAS submitted to OPM for the payroll periods ended
September 1, 2007, and March 1, 2008.

We reviewed the payroll data and documentation supporting the $430 million for Health
Benefits, Life Insurance, and Retirement withholdings DFAS reported each year to OPM
for DoD, DOE, HHS, and EPA civilian personnel. Specifically, we verified payroll data
file totals and calculations of Health Benefits, Life Insurance, and Retirement
withholdings for the four selected pay periods.

Use of Computer-Processed Data
We obtained and relied upon payroll data from DCPS. Specifically, we relied on Health
Benefits, Life Insurance, and Retirement withholdings and contributions for the pay
periods ended on September 1, 2007; October 27, 2007; November 10, 2007; and
March 1, 2008. We did not perform a formal reliability assessment because this was an
agreed-upon procedures engagement. However, we determined some data reliability by
totaling the data provided to us from DCPS and comparing that total to summary


                                            19
documents previously prepared and provided to us by DCPS. We also compared payroll
data from OPFs to the computer-processed data. We did not find errors that would
preclude the use of computer-processed data to meet the objectives of the agreed-upon
procedures or that would change the conclusions in the report.

Work of Other Auditors
Auditors from the DOE Inspector General performed the agreed-upon procedures that
involved reviewing DOE OPFs. Auditors from the HHS Inspector General performed the
agreed-upon procedures that involved reviewing HHS OPFs. We reviewed their working
papers and determined that we can rely on their work.

Government Accountability Office High-Risk Area
The Government Accountability Office has identified several high-risk areas in DoD.
This report provides coverage of the DoD Financial Management high-risk area.




                                          20
Appendix B. Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG), the
Army Audit Agency, and the Air Force Audit Agency have issued 11 reports discussing
civilian payroll and withholding data. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports are on the
internet at https://www.aaa.army.mil/reports.htm. Unrestricted Air Force Audit Agency
reports are on the internet at https://www.afaa.hq.af.mil.domainck/index/shtml.

DoD IG
DoD IG Report No. D-2008-002, “DoD Salary Offset Program for FY 2008,” October 9,
2007

DoD IG Report No. D-2007-133, “Defense Civilian Pay System Placed in Operation and
Tests of Operating Effectiveness for the Period of July 1, 2006, through June 30, 2007,”
September 28, 2007

DoD IG Report No. D-2007-129, “Civilian Payroll and Withholding Data for FY 2007,”
September 28, 2007

DoD IG Report No. D-2006-120, “Defense Civilian Pay System Placed in Operation and
Tests of Operating Effectiveness for the Period of July 1, 2005, through June 30, 2006,”
September 28, 2006

DoD IG Report No. D-2006-119, “Civilian Payroll and Withholding Data for FY 2006,”
September 27, 2006

DoD IG Report No. D-2006-002, “Civilian Payroll and Withholding Data for FY 2005,”
October 6, 2005

DoD IG Report No. D-2005-106, “Report on Defense Civilian Pay System Controls
Placed in Operation and Tests of Operating Effectiveness for the Period of October 1,
2004, through June 30, 2005,” September 15, 2005

DoD IG Report No. D-2005-069, “Audit of the General and Application Controls of the
Defense Civilian Pay System for FY 2005,” May 13, 2005

DoD IG Report No. D-2005-036, “Civilian Payroll and Withholding Data for FY 2004,”
February 17, 2005

Army
Army Audit Agency Report No. A-2005-0258, “Management Controls Over Civilian
Payroll Funds for FY 2005,” August 26, 2005

Air Force
Air Force Audit Agency Report No. F2007-0005-FB1000, “Follow-up Audit, Civilian
Premium Payments,” February 2, 2007




                                           21
22
Appendix C. OPM Agreed-Upon Procedures




                   23
24
25
26
27
28
29
30
31
32
Department of Army Comments




                  33
Department of Navy Comments




                   34
National Guard Bureau Comments




                   35
Department of Health and Human Service
Comments




                    36
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Mark S. Henricks
Thomas J. Winter
James B. Davis, Jr.
Fred R. McComas
Ariel Vega
Sandra E. Nieves-Mendez
Jackeline Ortiz-Perez
Erin S.-E. Hart
